Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401


Richard W. Moore
Inspector General



                                                         December 16, 2008


The Honorable Thomas C. Gilliland
Tennessee Valley Authority Board of Directors



Dear Mr. Gilliland:

AUDIT 2008-11528 – REVIEW OF ERNST & YOUNG LLP'S AUDIT OF THE TENNESSEE VALLEY
AUTHORITY FISCAL YEAR 2008 FINANCIAL STATEMENTS

The Tennessee Valley Authority (TVA) contracted with the independent public accounting firm of
Ernst & Young LLP (Ernst & Young) to audit the balance sheet as of September 30, 2008, and the
related statements of income, changes in proprietary capital, and cash flows for the year then ended.
In addition, the contract called for the review of TVA's fiscal year 2008 interim financial information filed
on Form 10-Q with the Securities and Exchange Commission. The contract required the work be
performed in accordance with generally accepted government auditing standards.

Under the Inspector General Act, the Inspector General (IG) is responsible for taking appropriate steps
to assure that any work performed by nonfederal auditors, including Ernst &Young, complies with
generally accepted government auditing standards. The Chief Financial Officers Act also places
responsibilities on the IG regarding TVA's annual financial statement audit. In keeping with these
statutory responsibilities, my office reviewed Ernst &Young's reports and related audit documentation,
interviewed its representatives, and performed such other procedures as deemed appropriate in the
circumstances to provide reasonable assurance the work was performed in accordance with generally
accepted government auditing standards.

The objective of our review was not intended to enable us to express, and we do not express, an
opinion on TVA's financial statements or on management's conclusions about the effectiveness of its
system of internal control. Ernst &Young is responsible for the auditor's reports dated December 15,
2008, and the conclusions expressed in those reports. However, our review disclosed no instances
where Ernst &Young did not comply, in all material respects, with generally accepted government
auditing standards.

We performed this attestation engagement in accordance with generally accepted government auditing
standards.

                                                         Very truly yours,



                                                         Richard W. Moore

RLT:JP
cc: See page 2
The Honorable Thomas C. Gilliland
Page 2
December 16, 2008




cc: Mr. Michael Barrett, Partner
    Ernst & Young LLP

    The Honorable Robert M. Duncan
    Tennessee Valley Authority Board of Directors

    The Honorable Howard A. Thrailkill
    Tennessee Valley Authority Board of Directors

    Kimberly S. Greene, WT 7B-K
    Peyton T. Hairston, Jr., WT 7B-K
    John M. Hoskins, WT 4C-K
    Tom D. Kilgore, WT 7B-K
    John M. Thomas III, WT 4B-K
    OIG File No. 2008-11528
